          COMMENT LETTER FOLLOW-UP

                         EXECUTIVE SUMMARY
The Office of Inspector General (Office) audited the Division of Corporation
Finance’s (Division) comment letter follow-up process. The purpose of the audit was
to evaluate the effectiveness of the process in helping the Division accomplish its
mission. The Office concluded that the Division’s follow-up process was generally
effective in helping the Division accomplish its mission.

To enhance the process, we recommend that the Division: consistently use the
timeframes for registrant responses included in their operating procedures; request
that registrants file amendments and supplemental information together; consult
with the Office of Information Technology on improving the usefulness of EDGAR
redlining; increase the distribution of the 10-K follow-up report to staff; and ensure
that staff upload review documents to EDGAR.


                      SCOPE AND OBJECTIVES
The audit objective was to evaluate the effectiveness of the comment letter follow-up
process in enabling the Division to accomplish its mission. We interviewed staff in
the Division of Corporation Finance, the Office of Filings and Information Services
(OFIS), and the Office of Information Technology (OIT). Also, we reviewed
applicable documents and analyzed data related to comment letters issued in FY
2000.

We conducted the audit fieldwork between November 2000 and March 2001, in
accordance with generally accepted government auditing standards.



                                   BACKGROUND
The Division of Corporation Finance implements the Commission’s Full Disclosure
Program. The program’s mission is to “…assure that investors are provided with
material information and to prevent fraud and misrepresentation in the public offering,
trading, voting, and tendering of securities….”1The Division reviews filings as one means
to accomplish its mission.

As a result of these filing reviews, the Division issues comment letters to registrants to
identify disclosures needing improvement. In response to these comments, registrants

1
    Commission’s Budget Estimate, Fiscal 2000, dated February 1999, page I-2.


COMMENT LETTER FOLLOW UP (AUDIT 326)AUGUST 15, 2001
                                                                                                          2

generally send the Division a letter addressing each comment and an amended filing
marked to identify the changes. The issuance of the comment letter starts a process of
communication between registrants and the Division to resolve the disclosure issues
raised in the comment letters (comment letter follow-up process)2.

The Division uses a two-level review process for comment follow-up. The first level
reviewers, staff accountants and attorneys, perform an in-depth review of the responses
provided by the registrant. The first level reviewers determine whether the registrant
provided a satisfactory response to the comments and propose disposition of the
comments. The second level reviewers, senior accountants and attorneys, perform a
generally less detailed review of the materials and the proposed dispositions of the
comments. As a result of the review, the second-level reviewers may agree with the first
level disposition, add their own comments, or waive certain comments.

If the Division is satisfied with the response, it will “clear” the comment. If it needs
more information or further action on the comment, it will issue a request for information
or re-issue the comment in another comment letter to the registrant. This process
continues until the Division has no further comments or the registrant withdraws the
filing. In cases where the registrant’s non-compliance appears material, the staff may
contact the Enforcement Division for possible action.

The Division developed the comment letter follow-up process primarily for comments
relating to 1934 Act reports (10-Ks, 10-Qs, 8-Ks, etc.). Registrants tended to resolve
comments more quickly on 1933 Act registrations (and on 1934 Act reports reviewed in
connection with these registrations) because they wanted the Division to allow their
registrations to become effective in order to raise capital in the securities markets. The
1934 Act reports are not used to register securities offerings.

In FY 2000, the Division reviewed and issued comments on 2,435 new issuers and 1,535
reporting issuers. In FY 1999, the Division reviewed and issued comments on 1,755 new
issuers and 2,550 repeat issuers. The Division still has a backlog of 10-Ks upon which to
follow up. The recent slowdown in 1933 Act registrations, however, has allowed the
Division to apply more of its review resources to 10-Ks.

The filing review workload of the Division continues to increase. The number of new
public registrations increased approximately 39% from FY 1999 to FY 2000, from 1,755
to 2,435. These new public registrants will also be required to file 1934 Act reports such
as 10-Qs (quarterly), 10-Ks (annually), and 8-Ks as the need arises, as long as they are
registered with the Commission.

2
 The Division’s filing screening process may result in comment letter follow-up. During the screening
process, the staff checks for comments from previous reviews that are pending resolution. If outstanding
comments exist, the staff performs a “monitor,” a narrowly focused review, to follow-up on the comments.

Also, comment letter follow-up may result from information in the Division’s management reports. One
management report lists 10-Ks with outstanding comments pending actions by either the registrant or the
staff. Another management report lists 1933 Act registrations pending initial comments.


COMMENT LETTER FOLLOW-UP (AUDIT 326)AUGUST 15, 2001
                                                                                            3




                           AUDIT RESULTS
Our Office concluded that the Division’s comment letter follow-up process was generally
effective in helping the Division accomplish its mission. We discuss our
recommendations, intended to further enhance the follow-up process, below.

Comment Response Timeframes
The Division’s operating procedures provide standard language for the staff to include in
its comment letters requesting amendments. This standard language instructs registrants
to provide amended filings within 10 business days of the date of the letter and to provide
supplemental information within 15 business days. These procedures encourage
registrants to respond promptly.

Division review staff, however, did not always include this language in their comment
letters. Out of a judgment sample of 38 comment letters, 20 letters included language
specifying when the registrant should file their amendments. Of the 20 letters that
included this language, 4 letters provided a specific date within 10 business days of the
date of the letter, 12 letters instructed the registrants to file amendments within 10
business days, and 4 letters instructed the registrants to file amendments within 15
business days.

Some staff members had not reviewed the procedures recently. As a result, over time, the
language used to request amendments varied across the groups.

Also, as noted above, the staff requested that registrants file their amendments five
business days before the supplemental information. Requesting that registrants file
amendments and supplemental information together would enable the staff to receive all
the response information at one time from the registrant.

       Recommendation A
       The Division should remind its staff to require registrants to file amendments and
       supplemental information within the timeframes provided in the operating
       procedures.

       Recommendation B
       The Division should consider requesting that registrants file amendments and
       supplemental information at the same time instead of five days apart.




COMMENT LETTER FOLLOW-UP (AUDIT 326)AUGUST 15, 2001
                                                                                                            4




EDGAR “Redlining”
The staff reviews amendments to evaluate the registrants’ responses to the accounting
and disclosure issues raised in the comment letters. This review is one of the most
important steps in the comment follow-up process.

To facilitate the staff’s review of amendments, Commission rules required registrants to
mark the changes in their amended filings “…clearly and precisely….”3To comply with
the rule, registrants sent the review staff paper copies of amendments with the changes
underlined.

The EDGAR system was supposed to facilitate the amendment review process by
allowing the staff to more quickly identify and review changes in electronic filings. To
accomplish this, the Commission required registrants to “redline,” or highlight, the
amended text in their EDGAR filings by inserting the appropriate “tags” or codes.

EDGAR redlining, however, appears to hinder rather than facilitate the staff’s review of
amendments. The EDGAR rules require that filers place redlining codes at the beginning
and end of paragraphs instead of at the beginning and end of the specific amended
information. 4 The Commission required this placement of the redlining codes because
the EDGAR system inserted spaces where it removed the codes from the filings for
public dissemination, indicating where information was amended in the filing.
As a result, the EDGAR system redlines entire paragraphs, often obscuring, instead of
clearly marking, the amended information.

The review staff often avoids using these redlined documents. Instead, the staff obtains
paper copies of the amendments from the registrant with the specific changes clearly
marked, as was done before EDGAR implementation. The manual review of paper
documents adds more time to the follow-up process.

In May 1999, the Commission amended the EDGAR rules to allow filers to redline
specific information in amendments submitted in HTML (HyperText Markup
Language)5. The EDGAR filer manual, however, was not updated to reflect the change
in the rule. Since filers followed the guidance in the EDGAR manual, they continued to
redline entire paragraphs.


3
  17 C.F.R. 230.472(a), 240.14a-6(h)
4
  17 C.F.R. 232.310, revised as of April 21, 1993.
5
  17 C.F.R. 232.310, revised as of May 21, 1999. The rule still requires that registrants place redlining
codes at the beginning and at the end of paragraphs in documents submitted in ASCII (American Standard
Code for Information Exchange) format.

COMMENT LETTER FOLLOW-UP (AUDIT 326)AUGUST 15, 2001
                                                                                            5

In connection with the EDGAR modernization project, the Office of Information
Technology (OIT) has attempted other software solutions to facilitate review of amended
information in electronic filings. These efforts have had limited success. One proposed
solution involved software to compare an amended document with a previous version to
identify changes. Another solution involved using the document compare function in the
Microsoft Word software.


          Recommendation C
          The Division of Corporation Finance should consider whether the benefits to the
          review staff of providing specific redlining in amended ASCII EDGAR filings
          outweigh the risk of disseminating the filings with spaces where EDGAR
          removed the redlining codes. If Division determines that the benefits outweigh
          the risks, it should recommend that the Commission amend the EDGAR rules to
          allow filers to redline specific information in ASCII filings.


          Recommendation D
          The Office of Filings and Information Services should update the EDGAR filing
          manual to reflect the change in the EDGAR rules concerning the use of redlining
          codes in HTML documents.


          Actions Taken
          The Office of Filings and Information Services indicated that the version of the
          EDGAR system in use after May 1999 did not properly recognize the redlining
          codes in HTML documents. In the newest version of EDGAR6, however, the
          deficiency was corrected. The Office of Filings and Information Services
          indicated that the filer manual would be revised to reflect the May 1999 change in
          the EDGAR rules concerning redlining.




Expand 10-K Follow-up Report Distribution
The Division developed the 10-K follow-up report to monitor the status of 10-K filings
with either no registrant response within 15 days or no staff action on a registrant
response within 15 days. Staff members indicated that this report covers only filings with
material comments. This report includes information such as the company name, staff
members assigned to the review, and the number of days pending.

Most groups gave the report to a designated senior accountant to track the status of 10-K
follow-up. The first-level review staff, however, rarely saw these reports. They


6
    EDGAR version 7.5, implemented in June 2001.

COMMENT LETTER FOLLOW-UP (AUDIT 326)AUGUST 15, 2001
                                                                                               6

generally relied on their records and memory to keep track of the 10-Ks that they
processed.

Also, in at least 7 out of a judgment sample of 41 pending items in the follow up report,
the 10-Ks were cleared, but were still listed on the report as pending. Because of the
volume of registration statements last year, the staff had little time to update the report.
The accuracy of the follow-up report, however, affects its reliability as a management
tool.

       Recommendation E
       The Division should periodically distribute to each review accountant and
       attorney the portion of the 10-K follow-up report that includes their filings for
       their review and update.

Upload Documents
The accountants’ and attorneys’ filing review reports and comment letters are uploaded to
the EDGAR system. During comment follow-up, the staff retrieves the uploaded
documents to compare to the registrant’s response. We noted in several instances,
however, that documents were not uploaded. This made it more difficult and time-
consuming for staff to follow-up on comments, especially those comments issued by
former Division staff.

The Division’s operating procedures require that the staff upload accounting and
examination reports as soon as the staff submits the reports for review, and upload
comment letters to EDGAR promptly after the material is mailed or faxed.

       Recommendation F
       The Division should remind the review staff to follow their operating procedures
       for uploading documents to EDGAR.

       Recommendation G
       The Division should periodically check a sample of companies reviewed to ensure
       that staff members upload documents.




COMMENT LETTER FOLLOW-UP (AUDIT 326)AUGUST 15, 2001
